No. l7-#2—
3fn tFje

Supreme Court of tfje ®ntte& States;
Paul V. Cannon,
Petitioner,
v.
Bank of America, National Association;
Mortgage Electronic Registration Systems, Inc.;
Bank Of New York Mellon, as Trustee for
CWABS Asset-Backed Certificates Trust 2007-9;
Specialized Loan Servicing, LLC,
Respondents.

CERTIFICATE OF VERIFICATION OF WORD COUNT
Paul V. Cannon, Petitioner, hereby certifies that in his Petition for | Writ of
Certiorari to the United States Court of Appeals for the Ninth Circuit the word
count limitation of 9,000 has been complied with. The said Petition contains 7,522
words.
Dated July 12, 2019.

Paul V. Cannon

